                                                       National Railroad Passenger Corporation
                                                       Office of Inspector General
                                                       10 G Street N.E., 3W-300
                                                       Washington, DC 20002




                       AMTRAK PROCUREMENT POLICY VIOLATED
                                   JULY 25, 2012
                                 CASE # PA-11-0240


OIG investigation disclosed that several Amtrak employees and entities acted inappropriately in
a concerted effort to influence the procurement process and decisions involved in that process on
a multi-year contract involving expenditures in excess of $800 million over a 3-year period. This
matter was referred to management, which resulted in administrative actions and corporate
sanctions.
